       Audit of USAID’s Placement of a Regional
       Office in Cambodia

       Audit Report No. 5-442-01-003-P

       June 26, 2001




                Regional Inspector General/Manila

2626
U.S. Agency for
INTERNATIONAL
DEVELOPMENT

RIG/Manila

26 June, 2001

MEMORANDUM

FOR:            Director, USAID/Cambodia, Lisa Chiles

FROM:           RIG/Manila, Paul Armstrong /s/

SUBJECT:        Audit of USAID's Placement of a Regional Office in
                Cambodia, Report No. 5-442-01-003-P

This memorandum is our report on the subject audit. Your response to the draft report is included in
Appendix II.

This report contains one recommendation for your action. Based on your comments, you have made
a management decision regarding the recommendation. Please notify the Office of Management
Planning and Innovation (M/MPI) in Washington when final action is completed and request closure
of the recommendation.

I appreciate the cooperation and courtesies extended by USAID/Cambodia to my staff during the
audit.
Table of   Summary of Results                       2
Contents   Background                               2

           Audit Objectives                         3

           Audit Findings                           4

           Management Comments and Our Evaluation   10

           Appendix I - Scope and Methodology       11

           Appendix II - Management Comments        13
Summary of
Results      Beginning approximately in September 2000, USAID/Cambodia (the
             Mission) assumed responsibility as the regional support office for activities in
             the neighboring non-presence countries (NPCs) of Vietnam, Thailand, Laos,
             and along the Burma border.

             The Office of the Regional Inspector General, Manila, audited
             USAID/Cambodia to assess the progress made in assuming this responsibility.

             Our audit procedures indicated that although several Mission employees had
             assembled partial lists of activities in the NPCs, a complete list of the activities
             had not been prepared (see pages 6 - 7). Further, although the Mission had hired
             several Personal Services Contractors (PSCs) and received several new
             managerial employees to assume the additional duties of regional support, most
             of them were uncertain about their responsibilities for the NPCs. Also, their job
             descriptions had not been updated to reflect those responsibilities (see pages 7 -
             10).

             Our audit also considered security at the Mission, as discussed in its Federal
             Managers’ Financial Integrity Act (FMFIA) report. The audit procedures
             indicated that the State Department and U.S. Embassy in Phnom Penh have
             taken several steps to enhance physical security in Cambodia and plan to take
             additional steps to address the issue (see page 10).

             This report contains one recommendation, addressed to USAID/Cambodia, and
             designed to facilitate the preparation of a management plan for the activities in
             the NPCs for which the Mission has assumed regional support responsibility.
             Specifically, it calls for the Mission to:

             •   Prepare a complete list of activities for which it has responsibility in the
                 NPCs served by its regional support office; and

             •   Identify who is responsible for each support duty for each activity listed.



Background   USAID has numerous activities in countries where it does not maintain resident
             U.S. direct hire employees – non-presence countries (NPCs). For example,
             USAID/Cambodia managed funding totaling about $24.2 million in fiscal year
             (FY) 2000 for activities along the Burma border and in Laos, Thailand and
             Vietnam, although no USAID direct hire employees work there. The office also
             managed $17.3 million of FY 2000 USAID funds for activities in Cambodia.


                                                                                           2
                   USAID and the State Department co-fund activities along the border of Burma
                   and Thailand to support democracy and humanitarian assistance. In Laos,
                   USAID funds an activity to develop silk production. In Thailand, USAID funds
                   the Accelerating Economic Recovery in Asia (AERA) activity that was designed
                   to deal with the aftermath of the Asian financial crisis. In Vietnam, USAID
                   funds the U.S. – Asia Environmental Partnership (US-AEP) to coordinate work
                   between the U. S. Environmental Protection Agency and its Vietnamese
                   counterpart to protect the local environment. Such activities require various
                   administrative and managerial support functions, including procurement,
                   accounting, executive office services, strategy formulation and implementation
                   management.

                   An activity in a non-presence country may be managed by a local PSC,
                   supported by a regional mission, and funded by a Washington bureau which may
                   also design its strategy. Considering the number of stakeholders involved in
                   such a non-presence country activity, and some managers’ confusion about the
                   definition of a non-presence country activity, overall management of non-
                   presence country activities can be a complex task.

                   In May 2000, the Asia and Near East (ANE) Bureau transferred the
                   responsibility for USAID programs and operations in the NPCs of Vietnam,
                   Thailand, Laos and Burma border from USAID/Washington and
                   USAID/Philippines to USAID/Cambodia. The actual transfer of specific
                   responsibilities (e.g., accounting, contracting, managing) was staggered over
                   several dates during the approximate period of August through October 2000.
                   USAID/Cambodia is now faced with the task of providing support to many
                   USAID activities in its neighboring NPCs.

                   In addition, USAID/Cambodia identified a material weakness in physical
                   security in 1997. That weakness, related to physical security issues which affect
                   the entire U.S. Embassy in Phnom Penh, has been reported in subsequent
                   Federal Managers’ Financial Integrity Act (FMFIA) reports prepared by
                   USAID/Cambodia.



Audit Objectives   The Office of the Regional Inspector General,                  Manila,    audited
                   USAID/Cambodia to answer the following audit objectives:

                   1. What progress has been made to establish a regional office in Cambodia?

                   2. What steps have been taken to specifically monitor activities in selected non-
                      presence countries?

                   3. What is the status of correcting the physical security weakness?



                                                                                                3
                 This audit was included in the RIG/Manila FY 2001 Audit Plan. Appendix I
                 contains a complete discussion of the scope and methodology for the audit.



Audit Findings   1. What progress has been made to establish a regional office in
                    Cambodia?

                 The USAID/Cambodia Mission has made progress in establishing a regional
                 support office for activities in the neighboring NPCs of Thailand, Vietnam,
                 and Laos, as well as for activities along the border between Thailand and
                 Burma. The Mission received a new Director in August 2000. Other new
                 Mission staff include the Chief of the Office of General Development, who
                 began work in Phnom Penh in January 2001, and the Supervisory Office of
                 Public Health Officer, who began work in September 2000. A new Program
                 Specialist was hired to work with humanitarian activities in November 2000.
                 Further, three U.S. PSCs were hired in September 2000 to work in the NPCs
                 of Vietnam and Thailand. The most recent new hires were two Foreign
                 Service Nationals in Hanoi, to assist the PSCs there. Another PSC position
                 requiring expertise in legal program areas may soon be filled as well. Some
                 of these positions will work exclusively in supporting NPCs, while others will
                 only dedicate a portion of their time to such tasks.

                 In addition to hiring new employees and contractors, USAID/Cambodia has
                 established offices at U.S. Embassy facilities in Hanoi and Bangkok.
                 USAID/Cambodia’s Executive Officer has equipped the Hanoi office with
                 computer and communication equipment, and continues to upgrade the
                 facilities.

                 Another challenge that the Mission has worked to overcome in establishing a
                 regional office is the shortage of skilled Foreign Service Nationals (FSNs) due
                 to the genocide that decimated the professional workforce in Cambodia in the
                 late 1970s. In keeping with USAID’s goal of development, the Cambodia
                 Mission has provided training to upgrade the skills of its FSN staff. Improved
                 FSN skills have enabled the Mission to reduce its Third Country National
                 (TCN) staff from seven to five in the last two years. The Mission hopes to
                 reassign another TCN position to an FSN employee in 2002. The Mission
                 currently has 63 employees, 43 of which are FSNs. Reassignment of TCN
                 positions to FSN employees enables the Mission to reduce payroll expenses
                 and further develop the skills of FSN employees. According to a study
                 prepared by USAID’s Personnel Operations Division of the Office of Human
                 Resources in May 2000, the Mission should be able to meet its responsibilities
                 as a regional office at existing staffing levels. In addition, the Mission should
                 be able to eliminate most high-cost TCN positions within two to three years.




                                                                                             4
                           2. What steps have been taken to specifically monitor activities in selected
                              NPCs?

                           An activity is a set of actions through which inputs such as commodities,
                           technical assistance, and training are mobilized to produce specific outputs (e.g.,
                           number of vaccinations given, schools built, or micro-enterprise loans issued.)1

                           USAID/Cambodia has taken steps to monitor activities in the NPCs, including
                           hiring three U.S. PSCs and establishing offices for them in Thailand and
                           Vietnam.       In addition, USAID/Cambodia and USAID/Washington
                           collaborated to review activities supporting Burmese refugees living along the
                           Thai-Burma border, to review activities in Vietnam, and to review the
                           regional Accelerating Economic Recovery in Asia (AERA) program.
                           USAID/Washington also sponsored several temporary duty (TDY)
                           assignments in Cambodia for its technical staff to review the AERA and HIV-
                           AIDS programs. The monitoring of activities in the NPCs is, then, a work in
                           progress.

                           However, USAID/Cambodia has not yet developed a complete system to
                           specifically monitor activities in the neighboring NPCs for which it has
                           regional support responsibilities. One logical approach to the task of
                           managing the USAID-funded activities in NPCs would be to first assemble a
                           complete list of the activities, and then determine who is responsible for each
                           of the support functions associated with each activity.

                           Complete List of Activities Needed

                           The Mission has several opportunities for improving its management of
                           activities in NPCs. The first priority should be to assemble a complete list of
                           activities funded by USAID in the NPCs, Vietnam, Thailand, and Laos, and
                           along the Burma border, including those funded by bureaus in Washington.
                           To date, the Global Bureau has not responded to RIG/Manila and
                           USAID/Cambodia requests for such information.

                           Our discussions with Mission personnel indicated that although they maintain
                           many partial lists, they had not prepared a complete master list of activities in
                           the NPCs, most of which are in Vietnam and Thailand. For example,

                           •    The Program Coordinator in Thailand, a U.S. PSC, began work in October
                                2000. Before then, no USAID employees had worked in Thailand for
                                approximately five years. He had begun assembling a list of USAID-
                                funded activities in Thailand, but considered it incomplete. He had not
                                received any other responsibilities at the time of the audit, in early 2001.
1
    ADS 201.3.6, “Activity Planning”



                                                                                                        5
•   The Contracting Officer explained that his list of activities in NPCs would
    not include activities from the Global Bureau. Although he has received
    procurement files from Washington for activities along the Burma border,
    he believes he might not have all of them. Further, he is expecting files
    for the Kenan Endowment in Thailand, but will not include its activities
    on his list until he receives the files. Finally, he explained that his list
    would have fewer activities than the Controller’s list, because hers would
    include activities funded by USAID/Cambodia but with procurement done
    elsewhere.

•   The Controller explained that some of the activities transferred from
    USAID/Philippines would not appear on her list because who would
    account for them had not been determined. Some of these activities were
    closing out, and the USAID/Philippines Contracting Officer had agreed to
    keep the files to close them. In addition, the Controller felt that
    responsibility for accounting for the Kenan Endowment and a Thai cash
    transfer fund should stay with USAID/Philippines. However, we noted
    that USAID/Cambodia did consider itself responsible for reviewing a non-
    Federal audit of the Kenan Endowment and attended the exit conference
    for that audit. Further, there were ANE Bureau activities she did not
    include on her list because their files are in Washington for migration from
    the New Management System to the Phoenix accounting system. She
    believes by the time she would receive the files, the activities would be
    completed.

•   USAID’s Center for Development Information (CDIE) is also tasked with
    maintaining lists of activities in NPCs, in the form of activity information
    sheets. Our review of CDIE’s inventory of activity information sheets
    indicated their list of activities in the NPCs was also incomplete.

The Mission had not prepared a complete list of activities because of other
priorities since the assumption of regional support responsibilities in October
2000. Those priorities included preparing for a Presidential visit to Vietnam
during the period, establishing new offices in Hanoi and Bangkok, the
orientation of several new managers, and the hiring of several PSCs. The
effect of not preparing a complete list of activities is increased risk that
activities will not be properly monitored by USAID/Cambodia’s new regional
support office.




                                                                           6
Responsibility for Support Functions

Proper management of the activities funded by USAID in the NPCs requires not
only a complete list of those activities, but also consideration of each support
duty that must be performed for each activity.

Our discussions with USAID/Cambodia employees identified numerous
situations where the employee responsible for each support duty for an activity
had not been clearly designated, and job descriptions for U.S. direct hire
employees had not been updated to include regional responsibilities. For
example,

•   The Chief of the Office of General Development, who began working in
    January 2001, indicated he was not sure about his responsibilities for
    activities in NPCs. Although he manages all activities in Cambodia
    except those related to health, he was uncertain who would manage
    analogous activities in the NPCs. He noted that the PSCs in Vietnam do
    not report to him. In addition, he is uncertain about the extent of his
    management responsibilities for activities originating from the ANE and
    Global Bureaus in Washington.

•   The Supervisor of the Office of Public Health, who began working in
    September 2000, was uncertain about her responsibilities for health
    activities in the NPCs, which are now managed by the ANE and Global
    Bureaus. She anticipates significant funding increases (e.g., quadrupling
    of Cambodia’s budget for health activities) because of a new HIV
    initiative in the region, and she is concerned about the relation of costs and
    benefits in managing the funds. Our own attempts to analyze costs and
    benefits in the regional support office at USAID/Cambodia indicated the
    Mission does not account for regional support operating expenses
    separately from operating expenses required to manage the Cambodia
    bilateral program.

•   One PSC in Vietnam, who began working in October 2000, has
    responsibility for three portfolios of activities (humanitarian, HIV, and
    health) and believes he has four supervisors. He reports to the other PSC
    in Vietnam, who works as the country manager. He also reports to the
    Supervisor of the Office of Public Health, and to the Program Specialist
    for humanitarian activities, and to the Chief of the Office of General
    Development. Recall that the Chief, mentioned above, says the PSCs in
    Vietnam do not report to him.

•   The Program Specialist for humanitarian activities in the Asia region (see
    photo of one such activity on the next page), who began work in
    November 2000, believes he is responsible for activities in Cambodia and



                                                                            7
   Vietnam. However, he may take on responsibility for managing activities
   in Laos. The management duties for humanitarian activities in Laos
   remain with USAID/Philippines for the moment. The Program Specialist
   has been unable to prepare a budget with Global Bureau for future funding
   of Vietnam activities because of his lack of familiarity with the activities,
   many of which he has not had time to visit. He relies on a PSC in Hanoi
   for details about many activities in Vietnam, and is not certain he should
   be supervising that PSC. However, the PSC in Hanoi says he also has not
   visited some of the activities yet. The Program Specialist is considering
   assuming a monitoring role for some activities in the Ho Chi Minh City
   area, which is closer to his office in Phnom Penh than to the PSC’s office
   in Hanoi. However, the PSC in Hanoi says that involvement by the North
   Vietnamese government in the activities necessitates their management
   from Hanoi.




       This child’s prosthetic device is a product of a humanitarian activity
                       funded by USAID in Southeast Asia.

The Mission had not clearly identified who is responsible for each support
duty for activities in the NPCs it serves because of other priorities since the
assumption of regional support responsibilities in October 2000. Those
priorities included a Presidential visit to Vietnam during the period,
establishing new USAID offices in Hanoi and Bangkok, the orientation of
several new managers, and the hiring of several PSCs. In addition, the Global
Bureau and the ANE Bureau have not provided instructions regarding
management duties for some activities. The effect of not clearly identifying



                                                                           8
who is responsible for each support duty for activities in the NPCs is
increased risk that activities will not be properly monitored by
USAID/Cambodia’s new regional support office. Other risks include failure to
manage for results, a lack of reliable and timely information for decision
making, and inadequate accountability for resources. The lack of clear roles
and responsibilities could lead to duplication of effort, inefficiencies,
increased travel costs, and lost synergies.


During our review of USAID/Philippines’ prior management of activities in
the NPCs, we noted that Mission had assembled a list of those activities, and
clearly identified who is responsible for each support duty for each activity
listed. In our opinion, a list of the type prepared by USAID/Philippines
constitutes the best management practice for monitoring activities funded by
USAID in NPCs.


       Recommendation No.            1:   We      recommend       that
       USAID/Cambodia:

       1.1    Prepare a complete list of the activities for which it
              has responsibility in the non-presence countries
              served by its regional support office, and

       1.2    Clearly identify who is responsible for each support
              duty for each activity listed.


3. What is the status of correcting the physical security weakness?

Our audit also included procedures dealing with security at the Mission, as
discussed in its Federal Managers’ Financial Integrity Act (FMFIA) report.
The results of our procedures indicated that the State Department and U.S.
Embassy in Phnom Penh have taken several steps to enhance physical security
in Cambodia and plan to take additional steps to address the issue. We also
collaborated with auditors from the Department of State in Phnom Penh
during their audit of security issues at the U.S. Embassy there, comparing the
results of testing each audit team performed. This report omits discussion of
detailed steps taken and planned to mitigate the weakness at the Mission due
to their sensitive nature.




                                                                         9
10
Management
Comments and     USAID/Cambodia concurred with our audit recommendation and offered
Our Evaluation   several informative observations regarding issues discussed in our report. We
                 have included Mission comments in their entirety in Appendix II, and we have
                 considered them in preparing the final report.

                 USAID/Cambodia has made a management decision regarding the audit
                 recommendation. Upon completion of final action, the Mission should advise
                 the Office of Management Planning and Innovation in Washington and
                 request closure of the recommendation.




                                                                                        11
                                                                                    Appendix I


Scope and     Scope
Methodology
              The office of the Regional Inspector General, Manila, conducted an audit
              regarding the establishment of a regional support office at USAID/Cambodia,
              and the status of a previously identified physical security weakness. The audit
              was conducted in accordance with generally accepted government auditing
              standards and was part of RIG/Manila’s approved Fiscal Year 2001 Audit Plan.
              We conducted the fieldwork at the USAID/Cambodia Mission in the U.S.
              Embassy in Phnom Penh, Cambodia, from January 30 through February 16,
              2001.

              The scope of the first two audit objectives included staffing at
              USAID/Cambodia and the neighboring NPCs supported by its regional office, as
              well as USAID-funded activities in those NPCs. The scope of the third audit
              objective included work with the physical security weakness that the Mission
              described in its FMFIA report.

              Methodology

              To accomplish these audit objectives, we interviewed officials working for
              USAID at its Missions in Cambodia and the Philippines, which had many of
              the regional responsibilities previously. We also interviewed U.S. PSCs who
              work in Vietnam and Thailand. In addition, we contacted officials at the
              Global and Asia and Near East Bureaus. We also collaborated with auditors
              from the Department of State in Phnom Penh during their audit of security
              issues at the U.S. Embassy there, comparing the results of testing each audit
              team performed. Additionally, we discussed the security issues with U.S.
              Embassy employees. During the interviews, we discussed and analyzed:

              •   USAID-funded activities in the NPCs.

              •   management responsibilities for the activities, and how the responsibilities
                  were performed,

              •   the number and type of staff supervised,

              •   costs incurred to manage the activities, and




                                                                                        12
•   concerns about managing the activities during and after the transfer of
    management      responsibility   from      USAID/Washington        and
    USAID/Philippines to USAID/Cambodia.

We also analyzed and discussed documentation regarding:

•   how USAID/Philippines had managed activities in NPCs,

•   official transfer of management responsibilities from USAID/Washington
    and USAID/Philippines to USAID/Cambodia,

•   staffing patterns and organizational charts for USAID/Cambodia, as well
    as job descriptions for USAID/Cambodia staff and employment contracts
    for PSCs,

•   cost information related to managing non-presence country activities,

•   grants, cooperative agreements, and contracts for USAID-funded activities
    in the NPCs,

•   the Mission’s FMFIA report and Department of State cables about the
    security weakness,

•   strategic planning and reporting for the NPCs, and

•   funds obligated for activities in Cambodia and the NPCs.




                                                                        13
                                                                                         Appendix II

Management
Comments                        UNITED STATES AGENCY FOR
                              INTERNATIONAL DEVELOPMENT
                                 PHNOM PENH, CAMBODIA
                                      No. 18, Street 228
                                                          Tel: (855-23) 217640
                                                         Fax: (855-23) 217638 or 218074

                                                                   June 1, 2001
MEMORANDUM

FOR:          RIG/Manila, Paul Armstrong

FROM:        Director, USAID/Cambodia, Lisa Chiles

SUBJECT:     Audit of the Status of USAID's Establishment of a Regional Office in Cambodia,
             Report No. 5-442-01-003-P

My staff and I have reviewed RIG's draft Report, subject as above, dated May 3,2001. We would
like to thank you for the time and effort that you devoted to the report since your
fieldwork at the Mission from January 30 through February 16, 2001. We would like to state at
the outset that we concur in RIG's Recommendation #1 and believe that we have fully addressed it.

We appreciate your understanding that the establishment of USAID/Cambodia as a regional office
remains a work in progress and that our extremely heavy workload from October -
December made it difficult to pick up all the pieces immediately. Complicating the task is the
requirement that new staff with Cognizant Technical Officer (CTO) regional responsibilities
undertake specialized training. As you may appreciate, trying to schedule these busy people into the
CTO courses is a time consuming process.

We believe that we have come a long way in dealing with non-presence countries (NPCs) since first
being designated as a regional support mission. We have formalized our internal
mechanisms in dealing with NPCs. We have organized weekly meetings focused on one NPC each
week. In addition, lines of authority have been strengthened and working relationships
have been firmly established. Mission staff frequently travel to NPCs, and PSC staff posted in
Thailand and Vietnam and supervised by USAID/Cambodia, frequently travel to Phnom Penh to
discuss program progress and issues.

The following example of a typical period, in this case mid-May to mid-June, illustrates how our
regional responsibilities have been fully integrated into our Mission. In mid-May, two of our
Vietnam personnel (our administrative assistant, Ms. Binh, and our senior Vietnam PSC, Jean
Gilson) spent a number of productive days discussing the Vietnam program and possible




                                                                                              14
                                                   2

problem areas with the Mission in Phnom Penh. This followed a visit by a member of the Executive
Office to provide support in finalizing the design of the newly allocated USAID Office space. The
Mission focused discussions on the Thailand and Burma programs last week, and our Chief of the
Office of General Development (OGD) is presently visiting the Burma border area in Thailand along
with our Thailand PSC, Tom Elam. On June 6, the Mission has again scheduled Program
Management discussions on Burma and Thailand as Tom Elam will visit the Mission in Phnom
Penh: both he and our OGD Chief will then depart for Thailand to view and discuss activities there.
This will be followed on June 13 by a Program Management meeting on Laos, Our OGD Chief and
a Mission colleague will then visit Laos to view and bold discussions on USAID activities there.
This example includes virtual teaming with our Washington counterparts as well. In mid-June, our
EXO, who serves on the Hanoi ICASS Council, will attend their June meeting. He will also follow
up with a number of administrative issues such as FSN personnel, IT communications and the
installation of the new USAID DTS- PO bandwidth, procurement of administrative supplies, etc.,
with the Administrative Counselor and his staff. In addition, I will visit from June 15-21, and attend
the Vietnam mid-year Consultative Group meeting in Hoi An.

USAID/Cambodia noted RIG/Manila's recommendation on page 10,of the report as stated below:

"Recommendation No. 1: We recommend that USAID/Cambodia:

1.1 Prepare a complete list of activities for which it has responsibility in the non-presence countries
served by its regional support office; and

Identify who is responsible for each support duty for each activity listed."

We agree that such a list would be useful to USAID/Cambodia. In fact, we have finalized a chart that
contains a complete list of activities in Vietnam, Laos, Thailand and Burma for which we have
responsibility. The chart also clearly identifies who is responsible for each major support activity,
Please see the "USAID/Cambodia Regional Activities Responsibilities" chart attached. Please also
note that the chart is accurate and complete as of this date but will remain a work in progress. There
will be a need for the chart to be continually updated as new programs come on line and as lines of
authority change,

The Mission believes that with our submission of the list attached, we have fully complied with
Recommendation No. 1. We, therefore, request that the recommendation be considered resolved
upon issuance of the final report.

We also have several comments we would like to make on the draft report itself. On page 3,
paragraph 3, the draft audit notes that the "Mission had hired several managerial employees…most
of them were uncertain about their responsibilities ... and their employment contracts were not
updated to reflect those [NPC] responsibilities." Actually, based on a previous analysis by
USAID/Manila and with USAID/Washington's concurrence, the Mission initiated


                                                                                                  15
                                                  3

action in June 2000 to hire three US PSCs to provide assistance in management of the NPC
programs in Vietnam and Thailand. As with any change, the Mission is continuing to define their
work objectives in consultation with USAID/W as we accept the added responsibilities of these new
programs. Currently we do not do program development for any of the NPCs, but only provide
oversight and monitoring. Program development and the NPC budgets are currently managed in the
ANE Bureau. We currently have shared responsibilities for these programs.

In the Background section on page 3, the draft audit states that: "…USAID provided funding
totaling about $14.2 million in fiscal year (FY) 2000 for activities along the Burma border and in
Laos, Thailand and Vietnam. . ." According to our records, FY 2000 obligations totaling $17.9
million were recorded for activities on the Burma border, Laos, Thailand/Regional and Vietnam,
with an additional $6.3 million carried over for FY 2001 obligation.

On page 4 the draft audit notes that "In Vietnam, USAID funds the U.S. Asia Environmental
Partnership (US-AEP) to coordinate work between the U.S. Environmental Protection Agency and
its Vietnamese counterpart to protect the local environmental." While that statement may be true,
USAID/Cambodia has no responsibility for the US-AEP program. All support for US-AEP from
administrative to implementation management is provided either from Manila where the US PSC is
based or from the Director of the US-AEP in the ANE Bureau. In addition, the ANE Bureau plans
funding for all NPC programs, not USAID/Cambodia. We would also like to point out that while
"USAID/Cambodia is now faced with the task of providing support to USAID activities in its
neighboring NPCs", we do not provide support for all USAID activities in our neighboring NPCs.
Some activities remain under the control of the Global Bureau in Washington, and some under the
control of the Department of State, i.e., Burma border ESF with obligation being done by them.

There are a number of USAID/Washington activities that are funded and/or controlled by
Washington. These are regional programs primarily initiated by the Global Bureau and presently
beyond our scope of responsibility as with all Global programs. We are not certain that we have a
full accounting of all Global funded programs in Cambodia and the region. We have been in contact
with the Global Bureau to see if we can get a fuller accounting of their activities. However, to date,
we have not yet received a full listing. Such a list would give all of us a better appreciation of the
full spectrum of activities being undertaken in the region in general, and in the mission and NPCs
specifically. We will continue to pursue this matter with the Global Bureau.

RIG notes on page 5 that the Mission hired "new employees and contractors" in making
"considerable progress” in establishing a regional support office for activities in neighboring
NPCs. Actually, only the three US PSCs were hired to manage the NPC programs. The other staff
changes were either under normal rotation cycle or the replacement for a departing US PSC for
USAID/Cambodia. Also on page 5, paragraph 2, the draft audit describes the equipping of the
Hanoi office but makes no mention of the Bangkok office. For your information, the Bangkok
Office is within the Embassy and all equipment and office space has been provided under a
negotiated ICASS agreement.



                                                                                                16
                                                   4

On page 6, last paragraph, we would like to note that the Kenan Endowment's program manager
resides in the ANE Bureau. This activity oversight ends in September 2001. The only oversight the
Mission has is to work with the external auditors to schedule work, respond to questions and assist
the grantee in responding to recommendations. The Mission has agreed to, and has followed up on
the open audit recommendations and monitoring of Kenan's compliance with the audit requirements
for the remainder of the oversight period. That audit is now closed,

On page 7, paragraph two, please note that the issues on accounting and audit monitoring
responsibilities for closed activities have since been settled between USAID/Philippines and
USAID/Cambodia. USAID/Philippines will remain responsible for maintaining the accounting
records for the closed projects. In fact, as of February 2001, they have restored the pertinent records
in their MACS database.

In response to RIG's comments on "Responsibility for Support Functions," on pages 7 - 9, we would
like to state that as the Mission works through the transition from a country mission to a regional
support mission, newly hired or newly arrived employees' reporting and supervisory responsibilities
are being addressed. The transfer of oversight responsibilities for the Lao activities did not take
effect until the departure of the Manila based PSC, which provided substantial overlap time for the
officers. With regard to accounting and financial management, the Mission does account for NPC
support in the MACS through designation of a specific office code for each NPC. As of now, we
only have one operating expense budget for Cambodia and the NPCs. The OE budget also includes
funding for ANE Bureau travel to monitor activities in the NPCs. Designation of a specific code
provides us with the flexibility to develop historical operating costs for each NPC.

Thank you for your consideration of the Mission's comments. We hope that you find our comments
and suggestions helpful. We look forward to reading your final report.




                                                                                                 17
                                                                                 USAID/Cambodia Regional Activities Responsibilities
                                                                                      Est.                                                             Management and Admin Support
                                                                                    Contract
                                                                                     Cost




                                                                                                                                                                                                                                                      Regional Legal Advisor
                                                                                                                                                                                                                    Finanical Management
                                                                                                                                                                             Policy Devel. Strategy
                                                                                    Obl. To




                                                                                                                                                       Monitor & Reporting
                                                                   Agreement         Date                                      AID/W or
                                                                   Number &         Average     Funding   Fundi                Mission      Activity
           Sector                   Description                    Contractor       Annual       Period     ng




                                                                                                                                                                                                      Procurement
                                                                                                                     CTO       Contact      Manager
Country    Activity                                                 Grantee           Exp                 Type(
                                                                                                            s)




                                                                                                                                                                                                                                           EXO
                                                                                                          Sourc
                                                                                                           e(s)
                      Provides basic training in health
                      delivery to reduce the spread of            AEP-G-00-        465,587
           Health     HIV/AIDS and addresses the growing          99-00019-00
                      problem of trafficking of women and                          436,331                                     Kai Spratt              Del                   Del
                      girls into prostitution in Thailand.        ACILS                        1/1999-            Caroline     AID/W        Thomas     McCluskey             McCluskey                Carey         Linda                             Michael
 Burma    HIV/AIDS                                                                             7/2001     DA      Connolly**                Elam       AID/W                 AID/W                    Gordon        Martin                       __   Williams
                                                                                   175,000
                      Provides education and training
          Education   activities for Burmese refugee              AEP-G-00-        4,785,026
                      educators which will develop skills and     99-00024-00                  6/1999-                         Del                     Del                   Del
                      knowledge that can be used to               World            2,757,574   9/2002     DA &    Kevin        McCluskey    Thomas     McCluskey             McCluskey                Carey         Linda                             Michael
Burma                 implement an effective education            Education                               CSD     Rushing      AID/W        Elam       AID/W                 AID/W                    Gordon        Martin                       __   Williams
                      system upon return to Burma.
                                                                                    970,000
                      To assist Burmese refugees, displaced
                      and pro-democracy groups improve
                      access to basic preventive and primary      AEP-G-00-        5,519,877
                      health-care; improve nutrition and food     99-00028-00
             HA       security; and improve the capacity and                       4,266,597                                   Del                     Del                   Del
                      management skills of national NGOs          Int’l Rescue                 7/1999-    DA &    Kevin        McCluskey    Thomas     McCluskey             McCluskey                Carey         Linda                             Michael
Burma                 and refugee community leaders.              Committee                    11/2002    CSD     Rushing      AID/W        Elam       AID/W                 AID/W                    Gordon        Martin                       __   Williams
                                                                                   1,710,000
                      To address the needs of Burmese
                      refugees and other students whose
                      college education was disrupted due to      442-A-00-01-
             DG       the political instability and closing of    00008-00         400,000
                      most urban universities in Burma. The
                      goal of the program is to enable            Open             400,000                                     Del                     Del                   Del
                      students to complete their education, as    Societies                    1/2001-    ESF     Kevin        McCluskey    Thomas     McCluskey             McCluskey                Carey         Linda                             Michael
Burma                 well as to assist students just beginning   Institute                    2/2003             Rushing      AID/W        Elam       AID/W                 AID/W                    Gordon        Martin                       __   Williams
                      their economic careers.
                      Assist Burmese pro-democracy
                      organizations in improving the quality
                      and dissemination of news and               442-A-00-01-
             DG       information reaching Burmese citizens,      00009-00         500,000
                      refugees and exiles.                                                     12/2000-   ESF                  Del                     Del                   Del
Burma                                                             Internews        500,000     1/2002             Kevin        McCluskey    Thomas     McCluskey             McCluskey                Carey         Linda                             Michael
                                                                                                                  Rushing      AID/W        Elam       AID/W                 AID/W                    Gordon        Martin                       __   Williams




                                                                                                                                                                                                                                                                               18
                                                                                          USAID/Cambodia Activities Responsibilities
                                                                                          Est.                                                          Management and Admin Support
                                                                                        Contract
                                                                                         Cost




                                                                                                                                                                                                                                                    Regional Legal Advisor
                                                                                                                                                                                                                     Finanical Management
                                                                                                                                                                              Policy Devel. Strategy
                                                                                        Obl. To




                                                                                                                                                        Monitor & Reporting
                                                                       Agreement         Date                                   AID/W or
                                                                       Number &         Average     Funding   Fundi             Mission      Activity
            Sector                      Description                    Contractor       Annual       Period     ng




                                                                                                                                                                                                       Procurement
                                                                                                                        CTO     Contact      Manager
Country     Activity                                                    Grantee           Exp                 Type(
                                                                                                                s)




                                                                                                                                                                                                                                            EXO
                                                                                                              Sourc
                                                                                                               e(s)

                         To improve the medical care, increase        442-A-00-99-
                         UXO awareness among primary school           00051-00         2,661,904
              HA         children, and decrease the risk of future
                         accidents in Xieng Khouang,                  World
                         Houaphan, Savannakhet and Salavane           Education/       1,781,721
 Laos      Leahy War     Provinces, and provide the physical,         World
          Victims Fund   social and economic livelihoods of war       Learning
                         affected people in Laos.                     Consortium/                                               Lloyd
                                                                                        450,000    5/2000-    DA      Kevin     Feinberg,   Lee         Lee                   Lee                      Carey         Linda                    ___   Michael
                                                                      Save the
                                                                      Children, U.S.               5/2003             Rushing   AID/W       Forsythe    Forsythe              Forsythe                 Gordon        Martin                         Williams

                         To provide a foundation of technical         442-A-00-99-
                         support to all levels of the silk industry   00051-00         1,500,000
             ECON        in Laos in order to increase the volume
                         and profitability of existing enterprises    World
 Laos                    and micro enterprises engaged in the         Education/       1,500,000
          LEAPSS         production, processing, and marketing        World
                         of silks in Laos.                            Learning
                                                                      Consortium                   6/1999-    DA      Kevin     Kevin       Lee         Lee                   Lee                      Carey         Linda                    ___   Michael
                                                                                        275,000    9/2002             Rushing   Rushing     Forsythe    Forsythe              Forsythe                 Gordon        Martin                         Williams




                                                                                                                                                                                                                                                                             19
                                                                                        USAID/Cambodia Activities Responsibilities
                                                                                         Est.                                                              Management and Admin Support
                                                                                      Contract
                                                                                         Cost




                                                                                                                                                                                                                                                       Regional Legal Advisor
                                                                                                                                                                                                                        Finanical Management
                                                                                                                                                                                 Policy Devel. Strategy
                                                                                     Obl. To Date




                                                                                                                                                           Monitor & Reporting
                                                                     Agreement        Average                                       AID/W or
                                                                     Number &        Annual Exp     Funding   Fundi                 Mission     Activity
             Sector                    Description                   Contractor                      Period     ng




                                                                                                                                                                                                          Procurement
                                                                                                                         CTO        Contact     Manager
Country      Activity                                                 Grantee                                 Type(
                                                                                                                s)




                                                                                                                                                                                                                                               EXO
                                                                                                              Sourc
                                                                                                               e(s)
                         To provide technical assistance to
             AERA        promote good governance and increase       442-A-00-00-     500,000
Thailand                 civil society participation in Thailand.   00105-00
                                                                                     500,000                                       Del                     Del                   Del
           Democracy                                                The Asia                        9/2000-           Kevin        McCluskey,   Thomas     McCluskey             McCluskey,               Carey         Linda                          Michael
                                                                    Foundation                      9/2002    ESF     Rushing      AID/W        Elam       AID/W                 AID/W                    Gordon        Martin                   ___   Williams
                                                                                     340,000
                         To provide support for a program to
             AERA        build a sustainable citizens grass-roots   442-A-00-00-     500,000
                         network in support of economic/political   00059-00
Thailand                 reform in Thailand.                                         500,000                                       Del                     Del                   Del
           Democracy                                                ACILS                           7/2000-           Kevin        McCluskey,   Thomas     McCluskey             McCluskey,               Carey         Linda                          Michael
                                                                                                    7/2002    ESF     Rushing      AID/W        Elam       AID/W                 AID/W                    Gordon        Martin                   ___   Williams
                                                                                     250,000
                         The purpose of the project is to improve
             AERA        the national capacity to monitor and       442-A-00-99-     725,000
                         respond to multi-drug resistant malaria.   00072
Thailand                                                                             725,000                                       Dennis                  Del                   Del
             Malaria                                                Kenan                           9/1999-           Caroline     Carroll,     Thomas     McCluskey             McCluskey,               Carey         Linda                          Michael
                                                                    Institute Asia                  10/2002   CSD     Connolly**   AID/W        Elam       AID/W                 AID/W                    Gordon        Martin                   ___   Williams
                                                                                     248,000
                         To support AERA’s broader objectives
             AERA        to help to create the conditions under     Under SEGIR      13,000,000
                         which rapid, effective, and sustainable    IQCs
Thailand                 economic recovery and restructuring                          9,992,843
           Econ Growth   can proceed in Thailand.                                                                     Rebecca      Rebecca      Rebecca    Rebecca               Rebecca
                                                                                                    9/1999-   DA &    Maestri,     Maestri,     Maestri,   Maestri,              Maestri,                 Carey         Linda                          Michael
                                                                                     1,940,000      10/2002   ESF     AID/W        AID/W        AID/W      AID/W                 AID/W                    Gordon        Martin                   ___   Williams

                         To implement an Environmental
             AERA        Support Program (ESP) to address the       442-A-00-99-     423,584
Thailand                 environmental needs and opportunities      00072                                                          Dennis                  Dennis                Dennis
           Environment   that Thailand faces including Urban                         423,584                                       Zvinakis,               Zvinakis,             Zvinakis,
                         Environment, Good governance and           Kenan                           9/1999-           Jeremy       USAEP/       Thomas     USAEP/                USAEP/                   Carey         Linda                          Michael
                         public participation and Clean Energy.     Institute Asia                  10/2002   DA      Hagger,      Manila       Elam       Manila                Manila                   Gordon        Martin                   ___   Williams
                                                                                     142,000                          AID/W




                                                                                                                                                                                                                                                                                20
                                                                                           USAID/Cambodia Activities Responsibilities
                                                                                           Est.                                                              Management and Admin Support
                                                                                         Contract
                                                                                          Cost




                                                                                                                                                                                                                                                         Regional Legal Advisor
                                                                                                                                                                                                                          Finanical Management
                                                                                                                                                                                   Policy Devel. Strategy
                                                                                         Obl. To




                                                                                                                                                             Monitor & Reporting
                                                                          Agreement       Date                                      AID/W or
                                                                          Number &       Average     Funding    Fundi               Mission       Activity
               Sector                      Description                    Contractor     Annual       Period      ng




                                                                                                                                                                                                            Procurement
                                                                                                                          CTO       Contact       Manager
Country        Activity                                                    Grantee         Exp                  Type(
                                                                                                                  s)




                                                                                                                                                                                                                                                 EXO
                                                                                                                Sourc
                                                                                                                 e(s)
                             To strengthen USAID’s capacity to
               SEGIR         assist developing countries in              PCE-I-00-98-   918,159
                             introducing, developing and                 00008
                             maintaining appropriate economic
Thailand   Bank Training     policies and institutional reforms at the   Deloitte,      918,159                         Rebecca     Rebecca       Rebecca    Rebecca               Rebecca
                             macro, sectoral and project level.          Touche &                   Completed           Maestri,    Maestri,      Maestri,   Maestri,              Maestri,                 Carey         Linda                          Michael
                                                                         Tohnmatsu                  11/2000     DA      AID/W       AID/W         AID/W      AID/W                 AID/W                    Gordon        Martin                  ____   Williams

                             To strengthen USAID’s capacity to
               SEGIR         assist developing countries in              PCE-I-00-98-   781,885
                             introducing, developing and                 00016
Thailand                     maintaining appropriate economic                           781,885     Completed           Rebecca     Rebecca       Rebecca    Rebecca               Rebecca
           Bank Training     policies and institutional reforms at the   Nathan                                         Maestri,    Maestri,      Maestri,   Maestri,              Maestri,                 Carey         Linda                          Michael
                             macro, sectoral and project level.          Associate                  9/2000-     DA      AID/W       AID/W         AID/W      AID/W                 AID/W                    Gordon        Martin                  ____   Williams
                                                                                                    4/2001
                             To strengthen USAID’s capacity to
                             assist developing countries in              PCE-I-00-99-   121,409
Thailand        Econ         introducing, developing and                 0006
                             maintaining appropriate economic                           121,049
                             policies and institutional reforms at the                                                  Rebecca     Rebecca       Rebecca    Rebecca               Rebecca
           Bank Training     macro, sectoral and project level.          Barents                    Completed           Maestri,    Maestri,      Maestri,   Maestri,              Maesri,                  Carey         Linda                          Michael
                                                                         Group                      7/2000      DA      AID/W       AID/W         AID/W      AID/W                 AID/W                    Gordon        Martin                  ____   Williams
                                                                                        121,409
                             To acquire quick-response advisory
                 DG          services and technical assistance in        PCE-I-00-99-   729,942
Thailand                     the area of democracy and                   00009-00
                             governance.                                                729,942                         Rebecca                              Rebecca               Rebecca
           Technical                                                     DAI                        3/2000-             Maestri,    Kevin         Thomas     Maestri,              Maestri,                 Carey         Linda                          Michael
           Asst                                                                                     5/2001      DA      AID/W       Rushing       Elam       AID/W                 AID/W                    Gordon        Martin                  ____   Williams
                                                                                        112,000
                             To accelerate the recovery and growth
Thailand       Econ          of Thai small and mid-sized                 AEP-G-00-      1,252,560
                             enterprises by helping them establish       99-00039-00
           Strategic Int’l   business linkages with U.S. firms on a                      880,026
           Assistance        cost-share basis.                           U.S.                                           Del                                  Del                   Del
           and                                                           Chamber of                 9/1999-     ESF     McCluskey   Kevin         Thomas     McCluskey             McCluskey,               Carey         Linda                          Michael
                                                                                         530,000    8/2002      & DA    AID/W       Rushing       Elam       AID/W                 AID/W                    Gordon        Martin                  ____   Williams
           Matchmaking                                                   Commerce
                                                                                                                        Del                                  Del                   Del
                                                                                                    9/13/00-            McCluskey                            McCluskey             McCluskey,               Carey         Linda                          Michael
Thailand                     Country Program Coordinator                 Thomas Elam    294,507     9/12/02     DA      AID/W       Lisa Chiles              AID/W                 AID/W                    Gordon        Martin                  ____   Williams




                                                                                                                                                                                                                                                                                  21
                                                                                          USAID/Cambodia Activities Responsibilities
                                                                                          Est.                                                              Management and Admin Support
                                                                                        Contract
                                                                                         Cost




                                                                                                                                                                                                                                                        Regional Legal Advisor
                                                                                                                                                                                                                         Finanical Management
                                                                                                                                                                                  Policy Devel. Strategy
                                                                                        Obl. To




                                                                                                                                                            Monitor & Reporting
                                                                       Agreement         Date                                        AID/W or
                                                                       Number &         Average      Funding    Fundi                Mission     Activity
            Sector                     Description                     Contractor       Annual        Period      ng




                                                                                                                                                                                                           Procurement
                                                                                                                           CTO       Contact     Manager
Country     Activity                                                    Grantee           Exp                   Type(
                                                                                                                  s)




                                                                                                                                                                                                                                                EXO
                                                                                                                Sourc
                                                                                                                 e(s)
                        Provide vocational training and job
                HA      placement to disabled adolescents with        492-G-00-98-     1,184,064
                        disabilities and a small percentae of         00042-00
          Vocational    other adolescents in especially difficult                      1,184,-064                                    Lloyd
Vietnam   Training      circumstances.                                World                         9/1998-             Kevin        Feinberg,   Mark       Lee                   Lee                      Carey         Linda                          Michael
                                                                      Concern                       9/2001      CSD     Rushing      AID/W       Rasmuson   Forsythe              Forsythe                 Gordon        Martin                  ____   Williams
                                                                                         634,000
                        Provides services to ensure the
                HA      inclusion of children with disabilities and   492-G-00-97-     1,149,712
Vietnam                 their families in their communities by        00035-00
                        increasing awareness, community                                1,149,712                                     Lloyd
                        support and training educators.               CRS                                               Kevin        Feinberg,   Mark       Lee                   Lee                      Carey         Linda                          Michael
                                                                                                    8/1998-     CSD     Rushing      AID/W       Rasmuson   Forsythe              Forsythe                 Gordon        Martin                  ____   Williams
                                                                                        292,000     6/2003

                        Provides inclusive education designed
                HA      to integrate hearing-impaired and deaf        492-G-00-98-     1,448,656
                        children into the mainstream school           00040-00
Vietnam                 system in Vietnam.                                             1,448,656
                                                                      Pearl S. Buck                                                  Lloyd
                                                                                                    8/1998-             Kevin        Feinberg,   Mark       Lee                   Lee                      Carey         Linda                   ____   Michael
                                                                                        351,000     12/2001     CSD     Rushing      AID/W       Rasmuson   Forsythe              Forsythe                 Gordon        Martin                         Williams
                        Provides food, clothing, shelter, social
                HA      guidance, education, and vocational           410-G-00-94-     1,180,030
                        training services to children in Vietnam      00546-00
                        living without or under the imminent                           1,180,030
          Vocational    threat of losing the benefit of daily care.   Health and                    Completed                        Lloyd
Vietnam   Training                                                    Education                     9/1994-             Kevin        Feinberg,   Mark       Lee                   Lee                      Carey         Linda                   ____   Michael
                                                                                        171,000     3/2001      CSD     Rushing      AID/W       Rasmuson   Forsythe              Forsythe                 Gordon        Martin                         Williams
                                                                      Volunteers
                        Provides state-of-the-art limbs using a
                HA      computer-assisted design and                  492-G-00-98-      100,000
                        manufacturing system installed at the         00010-00
Vietnam                 Hanoi Orthopedic Center called                                              Completed
                        Automated Fabrication of Mobility Aids        Prosthetics       100,000     2/1998-                          Lloyd
                        (AFMA)                                        Outreach                      12/2000     DA      Kevin        Feinberg,   Mark       Lee                   Lee                      Carey         Linda                   ____   Michael
                                                                      Foundation                                        Rushing      AID/W       Rasmuson   Forsythe              Forsythe                 Gordon        Martin                         Williams
                        Promotes accident prevention through
               Health   improved policy and enhanced public           442-G-00-         100,000
Vietnam                 awareness to reduce child and                 00114-00                                                       Douglas                Douglas               Douglas
                        adolescent deaths and disability due to                                     9/2000-             Caroline     Heisler,    Mark       Heisler,              Heisler,                 Carey         Linda                          Michael
                        injury.                                       UNICEF            100,000     8/2001      CSD     Connolly**   AID/W       Rasmuson   AID/W                 AID/W                    Gordon        Martin                  ____   Williams

          HA            Improves the skills of doctors, nurses
Vietnam                 and physical therapists and develops          429-G-00-98-     2,434,468
                        institutional ties between U.S. and           00011-00
                        nursing schools and Vietnamese                                 1,439,568
                        counterparts.                                 Health                                                         Lloyd
                                                                      Volunteers for                7/1998-             Kevin        Feinberg,   Mark       Lee                   Lee                      Carey         Linda                          Michael
                                                                                        219,000     12/2003     DA      Rushing      AID/W       Rasmuson   Forsythe              Forsythe                 Gordon        Martin                  ____   Williams
                                                                      Overseas




                                                                                                                                                                                                                                                                                 22
                                                                                        USAID/Cambodia Activities Responsibilities
                                                                                        Est.                                                                 Management and Admin Support
                                                                                      Contract
                                                                                       Cost




                                                                                                                                                                                                                                                          Regional Legal Advisor
                                                                                                                                                                                                                          Finanical Management
                                                                                                                                                                                   Policy Devel. Strategy
                                                                                      Obl. To




                                                                                                                                                             Monitor & Reporting
                                                                      Agreement        Date                                        AID/W or
                                                                      Number &        Average     Funding    Fundi                 Mission        Activity
            Sector                     Description                    Contractor      Annual       Period      ng




                                                                                                                                                                                                            Procurement
                                                                                                                        CTO        Contact        Manager
Country     Activity                                                   Grantee          Exp                  Type(
                                                                                                               s)




                                                                                                                                                                                                                                                 EXO
                                                                                                             Sourc
                                                                                                              e(s)
                        1)    Supports the formulation of
                              appropriate national policy and        492-G-00-48-
                              guidelines for barrier free access     00046-00        2,833,033
              HA        2)    Supports one rehabilitation center
Vietnam                       in the south serving war victims in    Vietnam Asst    1,716,818
                              the production of prosthetic           for the                                                       Lloyd
                              devices and wheelchairs.               Handicapped                 9/1998-     CSD     Kevin         Feinberg,     Mark        Lee                   Lee                      Carey         Linda                   ____    Michael
                                                                                      201,000    12/2002     & DA    Rushing       AID/W         Rasmuson    Forsythe              Forsythe                 Gordon        Martin                          Williams
                        Supports two satellite clinics at two
                        hospitals in Hanoi in providing              492-G-00-98-    1,695,870
                        thermoplastic braces for children with       00014-00
              HA        polio and other childhood diseases and                       1,695,870
Vietnam                 provides outreach services to patients       Vietnam
                        who can afford to come to the clinics        Veterans of                                                   Lloyd
                        through the mobile outreach truck.                            274,000    1/1998-             Kevin         Feinberg,     Mark        Lee                   Lee                      Carey         Linda                           Michael
                                                                     America
                                                                     Foundation                  12/2001     DA      Rushing       AID/W         Rasmuson    Forsythe              Forsythe                 Gordon        Martin                  ____    Williams
                        Provides funding and technical training in    492-G-00-98-
              HA        the fabrication of prosthetic and orthotic   00048-00        801,744     Completed                         Lloyd
Vietnam                 devices for in and outreach patients in                                  9/1998-             Kevin         Feinberg,     Mark        Lee                   Lee                      Carey         Linda                           Michael
                        four rehabilitation centers.                 World Vision    801,744     12/2000     DA      Rushing       AID/W         Rasmuson    Forsythe              Forsythe                 Gordon        Martin                  ____    Williams
                        Provides displaced and disabled children     492-G-00-98-
                        and their families protection from           00039-00        712,514
              HA        exploitation, improved living conditions,                    712,514                                       Lloyd
Vietnam                 and better access to education, health       World Vision                9/1998-             Kevin         Feinberg,     Mark        Lee                   Lee                      Carey         Linda                           Michael
                        and income generation opportunities.                                     9/2001      CSD     Rushing       AID/W         Rasmuson    Forsythe              Forsythe                 Gordon        Martin                  ____    Williams
                                                                                       89,000
                        To strengthen the newly established
                        National Economic University’s Business      442-A-00-00-    1,500,000
            ECON        School to enable the Business School to      00070-00
Vietnam                 become self-sustaining and to support                                                                      Del                                             Del
                        trade and investment reform.                 Boise State      750,711    7/2000-             Kevin         McCluskey,    Jean        Kevin                 McCluskey,               Carey         Linda                           Michael
                                                                     University                  7/2002      DA      Rushing       AID/W         Gilson      Rushing               AID/W                    Gordon        Martin                  ____    Williams
                        To assist key Vietnamese officials
                        charged with commercial and investment       AEP-G-00-
Vietnam     ECON        code reform to gain a better                 99-00029-00     2,235,334
                        understanding of legal and economic                                                                        Del                                             Del
                        concepts.                                    The             2,235,334   8/1999-             Kevin         McCluskey,    Jean        Kevin                 McCluskey,               Carey         Linda                           Michael
                                                                     International               8/2001      DA      Rushing       AID/W         Gilson      Rushing               AID/W                    Gordon        Martin                  ____    Williams
                                                                     Center

Vietnam     ECON        Senior USAID Program Manager                                             9/8/00-                                                                                                    Carey         Linda                  John     Michael
                                                                     Jean Gilson      191,300    9/7/02      DA      Lisa Chiles   Lisa Chiles                                                              Gordon        Martin                 Martin   Williams
          HA/Health     Deputy USAID Program Manager                 Mark                        9/30/00-            Jean                        Jean                                                       Carey         Linda                  John     Michael
Vietnam                                                              Rasmuson         189,800    9/29/02     DA      Gilson*                     Gilson                                                     Gordon        Martin                 Martin   Williams
          HA/Health     DA Assistant (Health & HA)                                               5/6/01-             Jean                        Jean                                                       Carey         Linda                  John     Michael
Vietnam                                                              Ngo Tien Loi     13,295     5/5/06      CSD     Gilson*                     Gilson                                                     Gordon        Martin                 Martin   Williams
          Trade/Inv’t   DA Assistant (Trade, Investment &            Pham Thi Le                 4/25/01-            Jean                        Jean                                                       Carey         Linda                  John     Michael
Vietnam                 Banking)                                     Dung             13,295     4/24/06     DA      Gilson*                     Gilson                                                     Gordon        Martin                 Martin   Williams




                                                                                                                                                                                                                                                                                   23
*      Not officially appointed CTO
**     On completion of CTO training
HA     Humanitarian Affairs
DG     Democracy and Governance
Econ   Economic




                                       24
